    GENERAL SERVICES ADMINISTRATION
      OFFICE OF INSPECTOR GENERAL
 



                     Recovery Act Report –
          Audit of Small Project American Recovery and
      Reinvestment Act of 2009 Funding Used for Move Costs
               Audit Number A110215/P/R/R12002

                       February 17, 2012
                                                                                             

Date:                        February 17, 2012

Reply to                     Marisa A. Roinestad
Attn of:                     Audit Manager
                             Real Property Audit Office (JA-R)

Subject:                     Recovery Act Report – Audit of Small Project American Recovery and
                             Reinvestment Act of 2009 Funding Used for Move Costs
                             Audit Number A110215/P/R/R12002

To:                          Robert A. Peck
                             Commissioner, Public Buildings Service (P)

During our oversight of the GSA’s American Recovery and Reinvestment Act (Recovery
Act) projects, we found GSA has not reported that funds allocated for Small projects
were used for move costs related to Full and Partial Building Modernization (Building
Modernization) and Limited Scope projects. To ensure transparency, GSA should post
this information for public review.

Use of Small Projects Funds for Move Costs is Not Transparent

Under the Recovery Act, Congress appropriated $4.5 billion to convert GSA facilities to
High-Performance Green Buildings (HPGB), as defined in the Energy Independence
and Security Act of 2007.1 The Recovery Act required GSA to submit a project plan for
the use of these funds to Congress within 45 days and notify Congress 15 days prior to
any changes in the plan. The Office of Management and Budget (OMB) issued
guidance to facilitate the accountability and transparency objectives of the Recovery
Act. The guidance states that recipients and uses of all funds are to be transparent to
the public. The public benefits derived from the use of Recovery Act funds are to be
reported clearly, accurately, and timely.

In implementing the Recovery Act, GSA apportioned the funds for HPGB projects into
three categories: Building Modernization projects, Limited Scope projects, and Small
projects.2 The original project plan, or Spend Plan, sent to Congress reserved
                                                            
1
 Title IV, Section 401 (13) of Public Law 110—140 lists the criteria for a HPGB.
2
 In addition to the funding for projects, the Recovery Act specifically designated up to $127 million of
HPGB funds for building operations, $108 million for rental of space, $4 million for the Office of Federal
High-Performance Green Buildings, and $3 million for apprenticeship training programs.


                                                               1
$298,576,000 for HPGB Small projects. In Revised Spend Plan #8, dated September 6,
2011, this amount was reduced to $199,309,000.3

While GSA’s Spend Plan specifically identifies the selection criteria4 for the use of
Building Modernization and Limited Scope funds and lists these projects, it reports
Small project funding only as a lump sum, does not provide the criteria as to how the
funds will be used, and does not list the Small projects. Based on the criteria for the
Building Modernization and Limited Scope projects, it could be expected that Small
project funds would be used on smaller scope projects featuring energy conservation
and renewable energy generation.

However, of the $199,309,000 reserved for Small projects, GSA obligated $58,562,2645
(nearly 30 percent) for move costs to support 26 Building Modernization and Limited
Scope projects (see Appendix C). These projects averaged $2,252,395 in move costs
with the largest obligations being the Whipple Federal Building Modernization in Fort
Snelling, Minnesota ($12,058,936) and the 1800 F Street Building Modernization in
Washington, District of Columbia ($13,122,453). On the 1800 F Street Building project,
the move costs included appliances, audio-visual package, Sensitive Compartmented
Information Facility revisions, server relocation, furniture, printers, surge support, Voice
over IP conference phones, furniture relocation, and the mover’s contract.

Neither the Spend Plan nor any of GSA’s Recovery Act reporting identifies how the
funds are being used. In weekly reports submitted to OMB, GSA reports the total
amount of obligations for all Small projects and the amount of obligations by category of
work such as Repairs, Construction and Energy, but does not identify the move costs
specifically. Further, in the Federal Procurement Data System - Next Generation, GSA
reports move-related contract actions, but does not specify that Small project funds are
being used.6

Conclusion

To ensure the transparency goal of the Recovery Act, GSA needs to clearly report how
Small project funding is being used. GSA should provide a list of the HPGB Small
projects it is performing and should denote that Small project funds are being used to
support the move costs of the HPGB Building Modernization and Limited Scope
                                                            
3
    This decrease was not caused by the amount of Small project funding obligated for move costs in
support of Building Modernization and Limited Scope projects. 
4
   The selection criteria used, in descending order of weight: a) High-performance features concentrating
on energy conservation and renewable energy generation, b) Speed of construction start (creating jobs),
with an emphasis on those projects that could begin within 120 days, and c) Execution Risk (ensuring that
the projects will not fail due to unforeseen conditions). 
5
   $58,562,264 in obligations is as of September 9, 2011.
6
    Federal Procurement Data System - Next Generation includes 7,594 PBS Recovery Act procurement
actions from October 1, 2008, through September 19, 2011.


                                                               2
projects. In doing so, GSA can provide a clear and transparent view of how the Small
project funds are being used and of the total HPGB funds being used on the Building
Modernization and Limited Scope projects.

Recommendations

We recommend that GSA improve transparency by:

   1. Providing supplemental reporting that lists the amount of funds obligated by
      project under the Small project category. The list should: identify move costs as
      well as other uses of funds, be updated periodically for changes, and be posted
      publically on www.gsa.gov and submitted to www.recovery.gov.

Management Comments

In its comments, management acknowledged the audit finding and concurred with the
recommendation (see Appendix A).

We appreciate the support that has been provided throughout this audit. If you have
any questions about this report, please contact me at (202) 219-0088.

Sincerely,



Marisa A. Roinestad
Audit Manager
Real Property Audit Office (JA-R)




                                          3
               Recovery Act Report –
    Audit of Small Project American Recovery and
Reinvestment Act of 2009 Funding Used for Move Costs
         Audit Number A110215/P/R/R12002

              Management Comments




                         A-1
                                             Recovery Act Report –
                                  Audit of Small Project American Recovery and
                              Reinvestment Act of 2009 Funding Used for Move Costs
                                       Audit Number A110215/P/R/R12002

                 Background, Objective, Scope, Methodology, and Internal Controls

Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided GSA
with $5.55 billion for its Federal Buildings Fund. In accordance with the Recovery Act,
the GSA Public Buildings Service (PBS) is to use these funds to convert federal
buildings into High-Performance Green Buildings (HPGB) as well as to construct federal
buildings, courthouses, and land ports of entry. The Recovery Act mandated that $5
billion of the funds be obligated by September 30, 2010, and that the remaining funds
be obligated by September 30, 2011.

To convert federal buildings into HGPB, tenant agencies may need to relocate during
construction. On a typical, non-Recovery Act construction project, customers fund the
costs to move into and out of temporary “swing space” during building modernization
projects. The need to fund move costs is usually discussed with customer agencies in
the early planning stages of a project so that the funding can be incorporated into the
budget process. However, the timeframes associated with the Recovery Act did not
allow for this.

GSA’s Recovery Act implementation document entitled “Financial Guidance Document,”
dated June 2009, provides that forced move costs for Recovery Act projects be included
as a project cost. It states that the use of Building Modernization and Limited Scope
project funding is directly tied to the approved Spend Plan. Small project funding is tied
to the approved internal project lists issued by the PBS Office of Portfolio Management
and the PBS Program Management Office. In addition, according to the “Revised
Pricing for Recovery Act Projects Internal Guidance for GSA,” GSA (as the agency
forcing the tenant’s move) can use Recovery Act funding for move costs in fiscal years
2010 and 2011. Move costs that GSA is responsible for include the physical move,
move coordination, new furniture,7 and relocation and installation of telecommunications
and automated data processing equipment.

The GSA Office of Inspector General is conducting oversight of the projects funded by
the Recovery Act. This audit of move cost funding falls under the GSA Office of
Inspector General Recovery Act oversight.

                                                            
7
  According to the “Revised Pricing for Recovery Act Projects Internal Guidance for GSA,” dated
November 10, 2009, GSA may fund new furniture for swing space if it is demonstrated that it is more cost
effective to provide new furniture as opposed to reusing the existing furniture. Per the guidance, “A cost
benefit analysis and business case must be developed and approved by the Regional Recovery
Executive (RRE) and the Program Management Office.”

                                                               B-1
Objective

The objective of our audit was to determine if GSA is transparent in its use of HPGB
Small project Recovery Act funding for the move costs of HPGB Full and Partial
Building Modernization and Limited Scope projects.

Scope

We performed the fieldwork for this report from September to October 2011. The
fieldwork analyzed the use and reporting of Small project funds obligated as of
September 9, 2011.

Methodology

To accomplish the objective, we reviewed PBS obligation spreadsheets, Spend Plans,
and other pertinent project documents; communicated with PBS policy and project staff;
and reviewed applicable guidance and regulations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Internal Controls

The focus of the audit is to determine if GSA is complying with the Recovery Act
transparency objective. We evaluated internal controls over Recovery Act reporting to
the extent necessary to answer the audit objective. Related internal control issues are
discussed in the context of the audit finding.




                                         B-2
                           Recovery Act Report –
                Audit of Small Project American Recovery and
            Reinvestment Act of 2009 Funding Used for Move Costs
                     Audit Number A110215/P/R/R12002

                     Move Costs by Recovery Act Project

                Small Project-Funded Move Pool Costs as of 9/9/11
Project Name                                       Obligations        Outlays
CO, Denver Custom House Federal Building-        $     1,420,896    $   391,863
Courthouse
CO, Grand Junction Federal Building-Courthouse $          81,245    $     81,245
DC, Washington 1800 F Street Building            $   13,122,452     $ 12,926,397
FL, Orlando, Young U.S. Courthouse               $        12,438    $     12,438
HI, Honolulu Prince Kuhio Kanaianaole Federal    $     2,040,233    $ 1,389,897
Building-Courthouse
IA, Des Moines Neal Smith Federal Building       $        54,347    $      25,203
IL, Chicago Federal Center                       $       260,921    $      16,941
IL, Chicago Kluczynski Federal Building & U.S.   $     5,372,185    $   1,895,394
Postal Service Loop Station
IL, Chicago, 10 West Jackson Blvd.               $       605,000    $     169,275
IN, Indianapolis, Birch Bayh U.S. Courthouse     $       368,398    $     284,088
MA, Boston O'Neill Federal Building              $       294,107    $     167,514
MI, Detroit McNamara Federal Building            $     1,903,163    $     558,802
MI, Sault Ste Marie US Border Station            $       166,000    $     164,474
MN, Fort Snelling Whipple Federal Building       $   12,058,936     $   3,484,133
MO, Kansas City Richard Bolling                  $        74,999    $      32,218
MS, Jackson McCoy Federal Building               $     3,693,115    $     793,156
NJ, Newark, Peter Rodino Federal Building        $       690,068    $     662,445
OH, Cincinnati, John W. Peck Federal Building    $       431,246    $           0
OH, Cleveland, A. J. Celebrezze Federal Building $     2,235,395    $           0
OR, Portland Edith Green-Wyndell Wyatt Federal   $     5,852,975    $   5,838,204
Building
PR, San Juan Degatau & Courthouse                $     2,602,130    $ 2,319,006
TX, Houston G.T. Leland Federal Building         $       200,000    $          0
VA, Roanoke, Poff Federal Building               $     3,650,631    $ 1,071,964
WA, Spokane Foley U.S. Courthouse                $       775,920    $    775,920
WI, Milwaukee Federal Building & US Courthouse $          59,388    $     59,388
WV, Huntington Federal Building                  $       536,068    $     35,832
TOTAL                                            $   58,562,264     $ 33,155,805




                                      C-1
                              Recovery Act Report –
                   Audit of Small Project American Recovery and
               Reinvestment Act of 2009 Funding Used for Move Costs
                        Audit Number A110215/P/R/R12002

                                    Report Distribution

Commissioner, Public Buildings Service (P)

Deputy Commissioner, Public Buildings Service (P)

Chief of Staff, Public Buildings Service (P)

National Program Office Recovery Executive, Public Buildings Service (PCB)

Chief of Staff, PBS Office of Construction Programs, Pubic Buildings Service (PCB)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison, Public Buildings Service (PFF)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Investigations (JID)

Director, Office of Internal Operations (JI-I)

Investigator, Office of Internal Operations (JI-I)




                                               D-1
